Electronically File
7/23/2020 5:40 PM
Steven D. Griersm
CLERK OF THE CC URT

l
2

WILLIAM W. McGAHA, ESQ.
Nevada Bar #3234

SGHUETZE, McGAHA, TURNER & FERRIS PLLC.
601 S. Rancho Drive, Suite C-20

3
4

5

Las Vegas, Nevada 89106

(702) 369-3225

bmcqaha@smlvlaw.net
Attorneys for Plaintiff
DISTRICT COURT

6

CLARK COUNTY, NEVADA

7

8

JESS HOWARD KRIEHN,
Plaintiff,

9
10

VS.

li

LANCER INSURANCE,

CASE NO: A-19-797641-C
DEPT NO: 31

12

Defendant
13

ORDER

14

15

Defendant's Motion to Dismiss Plaintiffs Complaint having come on regularly foi

16

hearing on February 7, 2020 and then again on February 27, 2020, and William W

17

McGaha, Esq., of Schuetze, McGaha, Turner & Ferris, P.L.L.C. appearing on behalf o

18

the Defendant Lancer Insurance and no appearances by the Plaintiff, this matter havirtc

19

been fully briefed and the Court having been hilly apprised in the premises, the Cour

20

hereby makes the following FINDINGS OF FACT AND CONCLUSIONS OF LAW:

21
22
23
24
25

1.

On October 18,2019, a Motion to Dismiss Plaintiffs Complaint was filed b)

Defendant Lancer Insurance. On October 23, 2019, Plaintiff filed an Answer to Dismissa
of Motion of 10/18/19. On October23,2019, a Clerk's Notice of Nonconforming Document
was filed concerning the Motion to Dismiss. On November 19,2019, a Motion to Dismiss
Plaintiffs Complaint was again filed by Defendant Lancer Insurance. No subsequent

26

Opposition was timely filed. The matter was set for hearing on Department XXXI's
27

January 7, 2020 Motion Calendar. Present at the hearing was Plaintiff Jess Kriehn ir
28

1

2

proper person and William McGaha for Defendant.
2.

After hearing fell argument and there not being any requested additiona

3

relief, the Court denied the Motion to Dismiss without prejudice in order to provide the
4

pro-se Plaintiff with an opportunity to post a bond. In so doing, the Court specifically
5

informed the Plaintiff that his prior requested relief which had been granted as to filing
6
7
8
9
10
11

fees did not include an out of state bond as required pursuant to NRS 18.130 or NRS
18.140. Nevertheless, to provide the pro se Plaintiff the most deference allowed undei
the rules and given the procedural posture of the case, the Court provided Plaintiff unti
February 4,2020 to post a cost bond since the bond was already overdue.
3.

The parties were notified at the hearing that there would be a status ched

12

regarding whether Plaintiff had posted the cost bond set for hearing on Departmen

13

XXXI's February 7, 2020 Chambers Calendar and that if there was no bond posted the

14

Court would have to re-visit Defendant's Motion to Dismiss as the parties had discussed

15

On February 7th as more felly set forth in the minutes of that date, the Court reviewed the

16

Record and it showed that there is no cost bond posted.

17

4.

As no cost bond had been filed and in order to provide Plaintiff one las

18

opportunity to post the bond or seek other relief from the bond posting requirement, the

19

Court Ordered the parties to appear for a mandatory in-person status check regarding the

20

status of the case in light of the rules given no cost bond has been posted. The hearing

21

was set for February 27,2020 at 9 a.m. The minutes were then both electronically servec

22

and mailed to the Plaintiff at the address he provided in Arizona.

23
24
25
26
27
28

5.

On February 27,2020, defense counsel appeared and renewed his Motior

to Dismiss. Plaintiff was not present in court and the Record showed that no bond was
posted. There had been no request or communication from Plaintiff to the Cour
requesting that the hearing be continued or that there was any reason Plaintiff could no
appear. At the hearing, defense counsel informed the Court that he had receivec

1
2

electronic notification that Plaintiff had filed some documents. The Court had not beer
provided with the filings nor was there any notification of such provided. After defense

3

counsel notified the Court, the Court reviewed both the Motion for Appointment o
4

Attorney and Motion for a Settlement Conference which appear to have beer
5
6
7

electronically filed on February 26, 2020 in the late afternoon. Pursuant to Nevada law
there is no authority or basis for a Court to appoint counsel in a civil case.
6.

8

9
10

II

Further, as there is a pending Motion to Dismiss and Plaintiff had no

complied with his obligation to file a cost bond despite agreeing to do so and the Cour
providing him additional time, there was and is no basis for the Court to address the
Motion for a Settlement conference as there was no consent by defense counsel. Indeed

12

Defendant renewed its Motion to Dismiss and the Court in January had informed Plaintif

13

that it would need to apply the statute if Plaintiff did not comply.
7.

14

Thus, while giving Plaintiff the benefit the Court can for a pro-se litigant anc

15

after reviewing the two purported Motions which are not set to be heard until March tc

16

determine if they would provide any basis for the Court to grant Plaintiff any relief, the

17

Court finds that even taking into account what was is sought in those two pleadings, there

18

is no basis to withhold ruling on Defendant's Renewed Motion to Dismiss for Plaintiff's

19

failure to post a bond pursuant to NRS 18.130 and 18.140.

20

21
22
23
24
25

8.

on notice that if he did not post a cost bond and
III
III
III
III

26

III
27

III
28

Accordingly, because Plaintiff was given additional time to comply and was

1
2

that his Complaint could be dismissed, the Court GRANTS the renewed Motion to Dismiss
and finds that pursuant to applicable law given the circumstances and fads in the presen

3

case, Plaintiff s action is dismissed.
4

IT IS SO ORDERED this23 day ofi&, 2020.

5
6

DISTraCT COURT JUDGE

7

8
9

Respectfully Submitted by:
SCHUEfZE, lyiCGAHA, TURNER & FERRIS

10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

ESQ.
WILLIAM \MJMc
Nevada BaKNo<3134
601 S. Rancho Drive, Suite C-20
Las Vegas, Nevada 89106
Attorneys for Defendant

IN THE SUPREME COURT OF THE STATE OF NEVADA
JESS HOWARD KRIEHN,
Appellant,

No. 81593

FILED

vs.

LANCER INSURANCE,
Respondent.

FEB 1 8 2021
BJZMBEIH A. BROWN
CLERK OF SUPREME COURT

ORDER DISmSSWG APPEAL

py

DEPUTYCcERK

I

This is a pro se appeal from an order dismissing appellant’s
complaint. Eighth Judicial District Court. Clark County; Joanna Kishner.
Judge.
This appeal was docketed in this court on August 6, 2020. On
that date, this court issued a notice informing appellant of the deadlines for
filing documents. Pursuant to that notice, the opening brief or informal
brief form for pro se parties was due to be filed by December 4, 2020. When
appellant failed to file a brief by that date, this court entered an order on
December 28, 2020, directing appellant to file an informal brief form for pro
se parties or an opening brief that complies with NRAP 28 and 32 by
January 11, 2021. This court cautioned that failure to comply with the order
could result in the dismissal of this appeal. To date appellant has failed to
file the brief or otherwise communicate with this court. Accordingly, this
court
ORDERS this appeal DISMISSED.

Parragunre

w

, J.
Stiglich

Silver

Supreme Court
OF

Nevada
3) 1SM7A

APPENDEX C

Additional material
from this filing is
available in the
Clerk's Office.

